                  SEMIANNUAL
                  REPORT TO CONGRESS




Table of Contents

Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


Significant Audits, Inspections, and Other Reviews . . . . . . . . . . . . . . . . 5


Significant Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


Positive Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
     Highlights Based on Office of Inspector General Work . . . . . . . . . . . 21
     Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
     Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
     Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
     Legislative and Regulatory Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . 25


Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
     Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
     Inspection Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .30
     OIG Issued Audit Reports with Recommendations
     for Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
     OIG Issued Audit Reports with Questioned Costs . . . . . . . . . . . . . . . 32
          Reports Lacking Management Decision . . . . . . . . . . . . . . . . . . . . 33
          Prior Significant Recommendations Not Implemented . . . . . . . . . 34
     Summary of Inspections/Special Inquiries Activities . . . . . . . . . . . . . . 35
     Summary of Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . 36




                                                  APRIL 1, 2008 – SEPTEMBER 30, 2008
                                        SEMIANNUAL
                                        REPORT TO CONGRESS




                           Message from the Inspector General

                                    On behalf of the Department of Energy’s Office of Inspector
                                    General, I am pleased to submit our Semiannual Report to Congress
                                    for the period ending September 30, 2008. The Report highlights
                                    key accomplishments of the Office of Inspector General, particularly
                                    pertaining to our efforts to ensure the economy, efficiency, and
                                    effectiveness of Department of Energy operations. Summaries of
                                    some of our most significant reviews and projects are presented in
                                    the Report.

                                   On a personal note, for the past four years, in addition to serving as
                                   the Inspector General (IG) of the Department of Energy, I have
                                   had the distinct honor of serving as Vice Chair of the President’s
                                   Council on Integrity and Efficiency. The Council was created as a
                           forum for presidentially appointed, Senate-confirmed IG’s to work together
                           and coordinate professional activities.

                           On October 14, 2008, the President signed the Inspector General Reform Act
                           of 2008. Under the provisions of the new Act, the IG community will soon
                           embark on new challenges, which include standing up a new, unified council
                           to replace the separate President's Council on Integrity and Efficiency and
                           the Executive Council on Integrity and Efficiency.

                           During my tenure as Vice Chair, I have received exceptional support from
                           the IG community at large. I thank my colleagues in the IG community for
                           their cooperation. I would also like to thank Clay
                           Johnson, Chair of the President’s Council on
                           Integrity and Efficiency, for his efforts on
                           behalf of the Council. Most importantly,
                           I am deeply indebted to my colleagues at
                           the Department of Energy who provided an
                           extraordinary level of support and assistance
                           during my tenure. Without their tireless
                           efforts, I simply would not have been able to
                           serve the needs of the Council and the
                           Inspector General community. I am extremely
                           proud to be part of the Federal Inspector General
                           community, whose 12,000 members protect the interests of the citizens of
                           this Nation with distinction.




2   OFFICE OF INSPECTOR GENERAL
             SEMIANNUAL
             REPORT TO CONGRESS




The work of safeguarding public resources and the public trust is a
collaborative effort that stretches across government, including agency
management and the Congress. Much work has been done, but more
remains, and we look forward to the coming challenges.




                                              Gregory H. Friedman
                                              Inspector General




                                    APRIL 1, 2008 – SEPTEMBER 30, 2008    3
                                        SEMIANNUAL
                                        REPORT TO CONGRESS




                           This page intentionally left blank.




4   OFFICE OF INSPECTOR GENERAL
              SEMIANNUAL
              REPORT TO CONGRESS




Significant Audits, Inspections,
and Other Reviews
The Department's Unclassified Cyber
Security Program

As required by the Federal Information Security Management Act (FISMA),
the Office of Inspector General (OIG) conducted its annual independent
evaluation to determine whether the Department of Energy’s (Department)
unclassified cyber security program adequately protected data and information
systems. We found that while the Department continues to make incremental
improvements in its unclassified cyber security program by strengthening
configuration management of networks and systems and updating local
policies and procedures related to laptop computers and incident reporting,
certain problems persisted. Consequently, the risk of compromise to the
Department's information and systems remains higher than necessary.
Additional action was needed to reduce this risk. Management concurred
with the report's findings and recommendations and indicated that it would
take corrective actions on specific findings. (DOE/IG-0801)


Nuclear Weapons Safety Program Needs
Improvements at Sandia National Laboratories

The Department’s National Nuclear Security Administration (NNSA)
requires that design features minimizing the possibility of accidental or
inadvertent nuclear detonation be incorporated in all nuclear weapons.
Because of the importance of nuclear weapons safety to national security,
we performed an audit to determine whether nuclear weapons safety issues,
identified by Sandia National Laboratories (Sandia) Safety Assessment
organization, were being addressed in a timely manner.

We found that Sandia could not provide formal documentation explaining
the risks posed by safety issues and the basis for accepting those risks. We
further addressed concerns that NNSA had not provided effective oversight
of outstanding safety issues and found that NNSA has not specified through
guidance or requirements what safety information it needed from Sandia
regarding safety concerns or plans for resolution.



Public Reports are available in full text on our website at www.ig.energy.gov

                                      APRIL 1, 2008 – SEPTEMBER 30, 2008        5
                                                  SEMIANNUAL
                                                  REPORT TO CONGRESS




                                     Although Sandia reported that nuclear weapons systems are safe, we believe
                                     it is important that senior officials at the Department have all of the
                                     information regarding nuclear weapons safety concerns. Accordingly, our
                                     recommendations addressed improving the transparency of safety issues for
                                     decision makers. (DOE/IG-0799)


                                     Internal Controls Over Sensitive
                                     Compartmented Information Access for
                                     Selected Field Intelligence Elements

                                     The Department’s Office of Intelligence and Counterintelligence is
                                     responsible for granting sensitive compartmented information (SCI) access
                                     authorization to Department-affiliated personnel who need access to
                                     intelligence information. To complement a recent OIG inspection of
                                     internal controls associated with individuals on a Headquarters SCI access
                                     roster, we initiated an inspection to determine the adequacy of internal
                                     controls over access to intelligence information at two Field Intelligence
                                     Elements, Los Alamos National Laboratory (Los Alamos) and Sandia. Our
                                     inspection found that the Office of Intelligence and Counterintelligence and
                                     its subordinate Field Intelligence Elements at Los Alamos and Sandia did not
                                     have adequate administrative internal controls over their databases used to
                                     track SCI access authorizations. This report contained several
                                                    recommendations aimed at improving the Department’s
                                                    internal controls over SCI access authorizations.
                                                    (DOE/IG-0796)


                                                   Federal Energy Regulatory
                                                   Commission's Unclassified Cyber
                                                   Security Program

                                                   As required by FISMA, we conducted an annual independent
                                                   evaluation to determine whether the Federal Energy
Example of a computer chip that secures our        Regulatory Commission's (FERC) unclassified cyber security
internal controls and systems.                     program adequately protects its information systems and data.

                                     Specifically, we found that systems were authorized to operate without
                                     sufficient testing of mandatory cyber security controls. Also, cyber security
                                     incidents were not always handled and reported in accordance with Federal
                                     requirements. In addition, we identified weaknesses in the areas of access
                                     controls, segregation of duties, and configuration management. FERC had



6   OFFICE OF INSPECTOR GENERAL
              SEMIANNUAL
              REPORT TO CONGRESS




taken action to improve cyber security practices and maintained strong
network defenses against malicious intruders and other external threats.
However, additional actions were needed to further reduce the risk of
compromise to business information systems and data. Management
concurred with our recommendations and plans corrective actions to
enhance FERC’s cyber security posture. (DOE/IG-0802)


Improvements Needed in Departmental System
Certification and Accreditation

The Department has adopted a certification and accreditation process to
ensure lifecycle security for the numerous national security information
systems that process and store classified data. Despite departmental efforts
to improve security over its national security information systems, we
determined that program offices and field sites had not yet fully developed
and implemented adequate cyber security policies to ensure that national
security information systems were adequately protected, thus increasing the
risk of compromise to these systems. Management agreed with the report
and concurred with the recommendations. (DOE/IG-0800)


Significant Improvement Needed with Office of
Science Laboratory Sponsored Conferences

We conducted a review of selected Office of Science sponsored or co-
sponsored conferences managed by three of its laboratories to determine
whether the conference costs were managed effectively and consistent with
applicable policies and regulations. At Oak Ridge National Laboratory
(ORNL), we found certain actions that were contrary to Federal and
Department requirements. Specifically, ORNL incurred "unreasonable"
costs associated with conference-provided meals; used registration fees from
non-Department sources to pay for alcohol, entertainment, and gifts; had
not requested or obtained Department approvals prior to holding a number
of conferences; and, had not provided conference information for inclusion
in the Department's Conference Management System database.
Management agreed with our recommendations, which were aimed at
improving the Department’s management of conferences, and identified
corrective actions taken, initiated, or planned. (DOE/IG-0794)




Public Reports are available in full text on our website at www.ig.energy.gov

                                      APRIL 1, 2008 – SEPTEMBER 30, 2008        7
                                                    SEMIANNUAL
                                                    REPORT TO CONGRESS




                                    Concerns Over Yucca Mountain Contract
                                    Award Process

                                    In September 2007, the Department awarded a legal services contract to the
                                    law firm of Morgan, Lewis, and Bockius, LLP (Morgan Lewis). Subsequent
                                    to this award, the State of Nevada’s congressional delegation requested that
                                    the OIG review potential conflicts of interest related to the contract with
                                    Morgan Lewis. Our audit examined the Department’s award and
                                    administration of the 2007 contract in support of the Yucca Mountain
                                    license application and found that:

                                         ■   Although Morgan Lewis represented utilities in the spent nuclear fuel
                                             litigation against the Government, the firm implemented a mitigation
                                             plan in accordance with contract requirements; and,

                                         ■   The Department’s approach in awarding the Morgan Lewis contract
                                             was not consistent with the approach employed in awarding a prior
                                             legal contract for the same type of services.

                                    We also found that a fully written record memorializing the key decision
                                    points underlying its 2007 procurement strategy and selection process had
                                    not been developed. In our opinion, the public interest would have been
                                    better served had the Department done more to document the key decision
                                    points related to the selection process. (DOE/IG-0792)


                                                        Approval Suspension for Yucca
                                                        Mountain License Documents

                                                        During preparation to obtain a license from the Nuclear
                                                        Regulatory Commission to construct a permanent repository
                                                        of high-level radioactive waste and spent nuclear fuel at Yucca
                                                        Mountain, the Department’s Office of Civilian Radioactive
                                                        Waste Management (OCRWM) identified process
                                                        inadequacies and suspended approval of new documents
                                                        subject to quality assurance procedures. This suspension was
                                                        lifted in October 2006; however, the OIG subsequently
                                                        received allegations concerning the effectiveness of the
    Exploratory tunnel dug at Yucca Mountain.
                                                        suspension. We conducted an audit to determine whether
                                     documents were issued or reclassified during the suspension so that they would
                                     not be subject to the quality assurance process.




8   OFFICE OF INSPECTOR GENERAL
              SEMIANNUAL
              REPORT TO CONGRESS




Though we identified several questionable documents issued during the
suspension period, we determined that the documents had no material affect
on quality because they were revised after the suspension, reviewed under the
new quality assurance requirements, or not affected by any requirement
changes. The OIG recommended that OCRWM conduct follow-up reviews
to ensure that required corrective actions are effectively implemented.
Management concurred with the OIG recommendations and had already
initiated recommended actions prior to final report issuance.
(OAS-M-08-07)


Special Report: Petroleum-Based Fuels Use

The Department’s mission requires that it assume a leadership role in energy
conservation. Based on long-standing mandates to reduce fuel usage and the
realities of the current energy situation, we conducted a review to determine
whether the Department and its contractors are reducing their use of
petroleum-based fuels. The Department consumed over 7 million gallons of
petroleum-based fuel in its operation of a fleet of more than 14,000 vehicles.
Our review disclosed that the Department was aggressively pursuing a
strategy to reduce its use of petroleum-based fuels. Further, it exceeded
Federal requirements by achieving an almost 10 percent reduction in fuel
usage since Fiscal Year (FY) 2005 and was on track to achieve a 45 percent
reduction by FY 2012. While these accomplishments are notable, we
identified actions to further assist the Department in reducing fuel use and
to better prepare it to adjust to budget and mission impacts associated with
volatile fuel prices. (OAS-L-08-17)


Isotopes Derived from Uranium-233 Needed to
Meet Medical and Research Needs

Recent studies have concluded that the Department and the National
Institutes of Health need to focus research on the development of new
radionuclide production facilities and technologies as well as the
development and use of targeted radionuclide therapeutics that will allow
cancer treatments to be tailored for individual patients. The Department
has, however, determined that existing inventories of uranium-233 are no
longer needed to meet agency mission requirements despite it being the only
domestic producer of progeny isotopes from that material. Our review
concluded that current disposal plans for uranium-233 provide no assurance
that sufficient quantities of this resource and its valuable progeny isotopes
will be available to support U.S. medical and scientific research needs.
Public Reports are available in full text on our website at www.ig.energy.gov

                                      APRIL 1, 2008 – SEPTEMBER 30, 2008         9
                                                    SEMIANNUAL
                                                    REPORT TO CONGRESS




                                      Production is currently insufficient to meet research demands, and no viable
                                      alternative methods have yet been demonstrated or proven. We made several
                                      recommendations, including that a cost/benefit analysis be conducted of the
                                      usage and disposal of uranium-233. (DOE/IG-0795)


                                      Routine Evaluations Needed for
                                      Bonneville Power Administration's Aviation
                                      Management Program

                                      The Bonneville Power Administration (Bonneville) owns and operates six
                                      aircraft: four helicopters and two fixed-wing aircraft. Our review disclosed
                                      that Bonneville had not recently conducted a review to assess the continuing
                                      need for all of its aircraft or reported on the cost effectiveness of its aircraft
                                      operations. We recommended that Bonneville routinely evaluate the
                                      accuracy and reliability of passenger flight cost comparison data and
                                      assumptions; periodically review aircraft operations to determine the
                                      continuing need for all aircraft; and, prepare and submit an annual Capital
                                      Asset Plan to the Office of Aviation Management by the end of FY 2008.
                                      (OAS-L-08-14)


                                                         Improvement Needed Over Defense-
                                                         Related High Risk Property

                                                            The Department’s Los Alamos and Sandia National
                                                            Laboratories maintain and utilize firearms, firearm
                                                            components, weapons, and protective force equipment.
                                                            Departmental contractors are required to manage, control,
                                                            and protect these items, also referred to as high risk
                                                            property, against misuse, theft, and misappropriation over
                                                            their lifecycle. We initiated an audit to determine whether
                                                            both laboratories were effectively managing this property
                                                            and found effective administrative controls in place over
     Classroom instruction for security personnel.
                                                            the accountability of firearms. However, physical controls
                                         over other defense-related high risk property, such as firearm barrels, body
                                         armor, and gas masks, were not sufficient, resulting in increased risk of theft.
                                         Management generally concurred with our recommendations to improve
                                         controls over this equipment. (OAS-M-08-06)




10   OFFICE OF INSPECTOR GENERAL
              SEMIANNUAL
              REPORT TO CONGRESS




Joint Appointment Improvements
Are Encouraged

The Department’s Office of Science laboratories utilize joint appointments
with institutions of higher education and other scientific institutions to
supplement their staffing and create research opportunities. In FY 2007,
Argonne National Laboratory and ORNL had, respectively, 75 and 58 active
joint appointments. Our audit found that financial controls over joint
appointment activities were generally in place and functioning at the
laboratories we visited. However, we noted that neither laboratory recovered
the full costs of joint appointees from their partners, and followed prompt
billing practices. We suggested that the Office of Science direct the site
offices to ensure that the laboratories are in compliance with the full cost
recovery and prompt billing requirements of the Department’s orders.
(OAS-L-08-10)


Delays in Meeting Los Alamos National
Laboratory Consent Order Milestones

We initiated an audit to evaluate the Department’s progress in meeting Los
Alamos’ Consent Order milestones related to the remediation of hazardous
waste contamination. The audit disclosed that the Department is not likely
to complete certain long-term remediation activities at Los Alamos in
accordance with existing requirements. The Department’s ability to meet
Consent Order milestones was adversely impacted due to the lack of
prioritization and sufficient funding. We made recommendations to
improve the management of available funds and the schedule for meeting
Consent Order milestones. (DOE/IG-0793)


Small Business Opportunity Expansion Needed
at Oak Ridge National Laboratory

In support of the President’s Small Business Agenda, the Department
established a policy for small businesses to receive the maximum practicable
opportunity to participate as subcontractors. An audit found that despite
the fact that ORNL has 58 percent of its procurement dollars going to small
businesses, there remained many other functions that could be subcontracted
to small businesses.



Public Reports are available in full text on our website at www.ig.energy.gov

                                      APRIL 1, 2008 – SEPTEMBER 30, 2008        11
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




                            The Department’s Oak Ridge Office did not require the ORNL to consider
                            further small business outsourcing opportunities because the ORNL had
                            achieved most of the goals set by the Department. We estimated that
                            expanding small business opportunities at ORNL could potentially save
                            about $2 million per year for custodial, landscaping, and industrial hygiene
                            services. Management concurred with our recommendations to expand
                            ORNL’s small business opportunities. (OAS-M-08-08)


                            Greater Management Controls Needed
                            Over Changes to the Idaho Cleanup Project
                            Contract Baseline

                            The Department awarded a Cost-Plus-Incentive-Fee contract for the purpose
                            of treating and disposing of radioactive waste at the Idaho National
                            Laboratory. The contract was further negotiated with the contractor to
                            adjust the Statement of Work through a contract modification. Our audit
                            objective was to determine if changes to the Idaho Cleanup Project contract
                            cost baseline were appropriate. We determined that the Department
                            properly negotiated a majority of baseline changes, which reflected fair and
                            reasonable cost adjustments. However, for one significant activity, three
                            changes were made that were not reasonable.

                            After consultation with management officials, we concluded, and the
                            contractor acknowledged, that certain costs were reduced without required
                            cost/price or technical analysis, resulting in an overstatement of the cost
                            baseline by as much as $12.1 million. The Department, thus, is also
                            potentially liable for the payment of unnecessary fees to the contractor
                            totaling as much as $4.3 million. In addition to our recommendations to
                            strengthen internal controls, management proposed additional corrective
                            actions and pledged to implement controls that would prevent recurrence of
                            the problems identified. (OAS-M-08-10)




12   OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                               Improvements Needed Over Management
                               Controls for Monitoring and Closeout of Small
                               Business Innovation Research Phase II Grants

                               The Small Business Innovation Development Act of 1982 established the
                               Small Business Innovation Research (SBIR) Program to assist small
                               businesses in developing new ideas and technology. We conducted an audit
                               to determine whether weaknesses with the administration by the Office of
                               Science of the SBIR II grant program had been corrected.

                               Our review disclosed that the Office of Science’s Chicago Office (Chicago)
                               had not corrected all previously reported weaknesses in monitoring and
                               administering the SBIR II grants program. Action had not been completed
                               to resolve 50 percent of approximately $2.4 million of questioned costs
                                                 identified in our previous audit report, Administration of
                                                 Small Business Innovation Research Phase II Grants,
                                                 (DOE/IG-0521, August 2001); and, Chicago was not
                                                 reviewing subsequent grant costs or closing out completed
                                                 awards in a timely manner. We made recommendations
                                                 addressing timeliness and efficiency issues in the process.
                                                 (OAS-M-08-09)


                                                 Departmental Leased Space in the
                                                 National Capital Area
Department of Energy Germantown Building
Germantown, Maryland
                                                The Department manages approximately 10 million square
                                                feet of owned and leased real property at a cost of nearly
                               $168 million. In our reports on the Department of Energy’s Warehouse Space
                               (CR-B-97-01, January 1997) and Management of the Department of Energy’s
                               Leased Administrative Facilities (DOE/IG-0402, April 1997), we noted
                               problems with the Department’s business practices to manage its leased
                               administrative and storage facilities. We initiated this review to determine if
                               the Department was effectively managing its leased facilities in the
                               Washington, DC, metropolitan area.

                               Our review of these facilities disclosed that no substantial vacant space was
                               evident at any of the 15 locations we visited and the facilities appeared to be
                               efficiently utilized. The Department also adopted the use of 10-year
                               development plans that serve to identify under-utilized and excess property
                               and provide specific disposal arrangements. (OAS-L-08-09)


                               Public Reports are available in full text on our website at www.ig.energy.gov

                                                                     APRIL 1, 2008 – SEPTEMBER 30, 2008          13
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




                            Alternatives Explored to Secure Heavy
                            Water Inventory

                            The Department’s inventory of heavy water, used to make lithium deuteride
                            weapons parts, is a vital national security asset. After the dismantling of a
                            reactor at the Department’s Savannah River facility in 1996, there has been
                            no capability to produce heavy water in the United States. Due to the
                            significance of heavy water inventories to the nuclear weapons program, our
                            audit was initiated to determine whether the Department’s inventory will be
                            sufficient to meet national security requirements.

                            We found that NNSA had not established a path forward to secure new
                            sources of heavy water and although NNSA has identified several alternatives
                            to meet future requirements, each alternative requires significant lead-time.
                            While the Department’s heavy water inventory is adequate to meet near-
                            term requirements, NNSA is likely to fully deplete the existing inventory by
                            2019, absent new sources of the material. Management concurred with our
                            recommendations to address concerns on future inventories.
                            (DOE/IG-0798)


                            Resolution of Personal Safety Issues at
                            the Department

                            We conducted an audit to determine whether Department field sites are
                            taking corrective actions to resolve safety issues arising under the Corrective
                            Action Management Program (CAMP), a systematic process for developing,
                            tracking, reporting, and implementing corrective actions to resolve safety
                            findings. Though we noted some minor concerns, nothing came to our
                            attention to indicate that safety issues identified by the Department’s Office
                            of Health, Safety and Security were not being resolved. While no formal
                            recommendations were issued, we made several suggestions to field managers
                            to help meet requirements and improve oversight. (OAS-L-08-15)




14   OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL
               REPORT TO CONGRESS




Implementation of Integrated Safety
Management (ISM) at Lawrence Livermore
National Laboratory

Our review found that the Lawrence Livermore National Laboratory
(Livermore) had not fully implemented an ISM system to improve its safe
conduct of work. More specifically, Livermore had not always:

    ■   developed and implemented controls to eliminate hazards;

    ■   performed work within defined controls; and,

    ■   provided feedback to managers about identified hazards or aggressively
        pursued continuous improvement in safety.

Our recommendations to Livermore Site Office management included
improving safety tracking capability and performing appropriate analyses to
identify systemic safety issues and their causes. We further recommended
adjusting safety performance measures to demonstrate continuous
improvement and performance fees to reflect safety contractual
requirements. (DOE/IG-0797)




Public Reports are available in full text on our website at www.ig.energy.gov

                                      APRIL 1, 2008 – SEPTEMBER 30, 2008         15
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




                            This page intentionally left blank.




16   OFFICE OF INSPECTOR GENERAL
             SEMIANNUAL
             REPORT TO CONGRESS




Significant Investigative
Activities

Settlement Agreement with
Department Contractors

As previously reported, a joint investigation with various law enforcement
agencies determined that Government information technology contractors
received or provided questionable benefits such as fees and discounts as a
result of improper “alliance agreements” with other companies. This resulted
in false claims, false statements, and kickbacks on Federal government
contracts. Two companies settled with the Government for approximately
$5.27 million to resolve false claims violations. During this reporting
period, another company agreed to a settlement amount of $1,370,000.
This matter remains ongoing.


Civil Judgment Entered Against a Department
Subcontractor

A joint investigation with the U.S. Department of Agriculture (USDA)
OIG, determined that a subcontractor submitted 48 invoices containing
false statements regarding labor hours to the Department’s Argonne National
Laboratory. The USDA funded a Department Work-for-Others Program in
which the subcontractor conducted environmental cleanup and ground
water testing. As a result of the investigation, the U.S. District Court for the
Northern District of Illinois ordered a civil judgment against the
subcontractor in the amount of $625,000.


Civil Settlement Agreement with Contractor

An OIG investigation determined that a construction contractor installed
defective anchor bolts at the National Renewable Energy Laboratory’s
Dynamometer Spin Test Facility. It was also determined that the defective bolts
were installed incorrectly. The bolts were used to anchor items to the concrete
floor. As a result of the investigation, the contractor’s insurance company
agreed to a civil settlement with the Department in the amount of $139,634.



                                     APRIL 1, 2008 – SEPTEMBER 30, 2008            17
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




                            Contractor Reimbursed the Department for
                            Unallowable Payments

                            An investigation determined that a Department contractor employee had
                            inappropriately initiated and approved payments to a subcontractor,
                            bypassing procedures and using incorrect program funding. As a result of
                            the investigation, the Department contractor reimbursed the Department
                            $100,000 for unallowable payments to a subcontractor.


                            Four Individuals Plead Guilty to Burglaries

                            An OIG investigation determined that an organized group of four
                            individuals committed several burglaries and thefts of recyclable metals at
                            Bonneville and Flathead Electric Cooperative substations in Montana,
                            resulting in approximately $87,000 in losses and damages. The four subjects
                            of this investigation entered into plea agreements in the U.S. District Court
                            for the District of Montana. Each subject pled guilty to one felony count.
                            Sentencing is pending.


                            Individual Pleads Guilty in Compensation
                            Fraud Investigation

                            An OIG investigation determined that the son of a deceased Department
                            employee forged his mother’s signature on three Energy Employees’
                            Occupational Illness Compensation Program Act claim forms in an attempt
                            to obtain $275,000 in benefits to which he was not entitled. The son pled
                            guilty in U.S. District Court to one felony count of False Statements.


                            Pantex Plant Employee Pleads Guilty to Theft of
                            Government Property

                            A joint investigation with local law enforcement determined that a
                            contractor employee, whose job included transporting nuclear weapons
                            within the Pantex Plant, stole various items, including multiple desktop
                            computers, a flat screen monitor, and a printer/copier/facsimile from the
                            Pantex Plant. The employee pled guilty to one count of Theft of
                            Government Property. Sentencing is pending.




18   OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




                                                 Idaho National Laboratory
                                                 Contractor Employee Removed Filters
                                                 to Hazardous Waste Drums

                                                   An OIG investigation determined that a contractor
                                                   employee at the Idaho National Laboratory intentionally
                                                   removed filters from eight waste drums that contained
                                                   mixed hazardous and radioactive substances such as
                                                   transuranic waste. The individual’s employment was
                                                   terminated. He was later arrested and charged by the
                                                   Butte County Prosecutor’s office with eight felony counts
Example of containers used to store
                                                   of Malicious Injury to Property. The loss associated with
Transuranic Waste.
                                                   this incident was approximately $16,579. The contractor
                                  employee pled guilty to one count of malicious injury to property in Idaho
                                  State Court and was sentenced to 100 days incarceration and 1 year
                                  probation, and ordered to pay $13,525 in fines and restitution.




                                                                    APRIL 1, 2008 – SEPTEMBER 30, 2008         19
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




                            This page intentionally left blank.




20   OFFICE OF INSPECTOR GENERAL
              SEMIANNUAL
              REPORT TO CONGRESS




Positive Results
Highlights Based on Office of Inspector
General Work

During the reporting period, the Department took positive actions as a
result of OIG work conducted during the current or previous periods.
Consistent with our findings and recommendations:

   ■   The Department’s Oak Ridge Office completed a review of five
       facilities that have either sponsored or co-sponsored conferences during
       the period October 1, 2004, through Spring 2008 and recovered
       approximately $330,000 in unallowable conference costs. The Oak
       Ridge Office is now ensuring that appropriate approvals are provided
       for conferences and included in the Department’s Conference
       Management System. In addition, the Office of Science and NNSA
       recouped funds from inappropriate travel voucher claims, and both
       issued additional guidance on this subject. (DOE/IG-0794)

   ■   The Department announced plans to fine Bechtel National, Inc.,
       $41,250 for laying off an employee who raised safety concerns at
       Hanford's Waste Treatment Plant. (DOE/IG-0764)

   ■   The Sandia Site Office determined that $24,595 in charges made by
       employees using the procurement card program managed by Sandia
       National Laboratory-California were for unallowable purchases or
       lacked the documentation necessary to determine their business
       necessity. As a result, these funds were recovered from the Sandia
       Corporation and returned to NNSA. NNSA also revised and issued a
       new written policy regarding the reimbursement of business meals and
       refreshments. (OIG/IG-0754)

   ■   Los Alamos completed a 100 percent inventory of all defense-related
       high risk property. Both Los Alamos and Sandia National Laboratories
       are in the process of obtaining and implementing IT systems to track
       such property. (OAS-M-08-06)

   ■   The Department’s Office of Intelligence and Counterintelligence
       developed a process and criteria for nomination of individuals to the
       national Consolidated Terrorism Watchlist. (DOE/IG-0778)




                                     APRIL 1, 2008 – SEPTEMBER 30, 2008           21
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                               ■   The Department’s Office of Health, Safety and Security revised
                                   DOE O 142.3, “Unclassified Foreign Visits and Assignments
                                   Program,” to better address the Department’s process for reviewing
                                   access requests for nationals of state sponsors of terrorism.
                                   (DOE/IG-0791)

                               ■   The Department Headquarters and field sites took corrective action to
                                   evaluate publicly accessible websites and consolidate them where
                                   appropriate. The Department also took action to actively control
                                   publicly accessible website development and postings at field locations.
                                   (DOE/IG-0789)

                               ■   Los Alamos National Laboratory’s Field Intelligence Element improved
                                   security operations by: (1) ensuring staff received refresher training
                                   regarding security incident reporting; and, (2) establishing
                                   communication with other Laboratory organizations to ensure
                                   notification when employees terminate from the Laboratory. These
                                   actions should help reduce the opportunity for improper access to
                                   sensitive information and improve reporting of security incidents.
                                   (DOE/IG-0796)

                               ■   The Chief Information Officer established the Enterprise Incident
                                   Capability that consolidated the Department’s and NNSA’s two major
                                   incident reporting organizations and more fully integrated the various
                                   small scale incident management capabilities within the program
                                   offices and field sites. (DOE/IG-0787)

                               ■   The Department’s Idaho Operations Office's Chief Financial Officer
                                   revamped the procedures for managing changes to Cost-Plus-Incentive-
                                   Fee contracts that improves assurance that all changes to the scope of
                                   work are fairly represented in the target cost baseline. (OAS-M-08-10)

                               ■   The Material Control and Accountability program at Los Alamos has
                                   increased emphasis on standardized lot identification formulation and
                                   improved labeling methodologies that assist in differentiating material
                                   samples. This should facilitate the tracking and inventorying of
                                   accountable nuclear material. (DOE/IG-0774)

                               ■   Portsmouth and Paducah Gaseous Diffusion Plants implemented
                                   random drug testing for all armed personnel. (INS-L-07-01)

                               ■   The Department has begun the process of developing a strategic plan
                                   for addressing heavy water needs. It is expected to be completed in
                                   June 2009. (DOE/IG-0798)


22   OFFICE OF INSPECTOR GENERAL
              SEMIANNUAL
              REPORT TO CONGRESS




   ■   The Department committed to continually monitor the forecasts of
       low-level and mixed low-level radioactive waste from generators at
       Hanford and other Department sites and further adjust the Integrated
       Disposal Facility plans as appropriate. The Department will also re-
       evaluate the 2017 start date for the facility in light of the Hanford
       Tank Closure and Waste Management Environmental Impact
       Statement and Record of Decision, expected to be completed in 2009.
       (OAS-M-08-04)

   ■   Livermore began to develop and implement a project plan designed to
       improve safety tracking capability. Officials have also established
       causal analysis training. (DOE/IG-0797)

   ■   The Office of Nuclear Physics and the Office of Nuclear Energy
       organized the workshop, "The Nation's Needs for Isotopes, Present
       and Future," which was held August 5–7, 2008. The issues presented
       from the Special Report: Meeting Medical and Research Needs for Isotopes
       Derived from Uranium-233 (DOE/IG-0795, May 29, 2008) were
       prominently discussed by the Department's Isotope Program,
       stakeholders, and isotope customers. This workshop was the first step
       toward resolving the challenges facing the Department as it addresses
       complex issues and challenges to continue to supply these isotopes.
       (DOE/IG-0795)


Congressional Responses

During this reporting period, the OIG provided information at the request
of Congress in 24 instances and briefed congressional staff on 9 occasions.
In addition, the OIG testified at one congressional hearing:

   On September 25, 2008, before the Subcommittee on Oversight and
   Investigations, House Committee on Energy and Commerce, entitled
   “A Review of Continuing Security Concerns at DOE’s National Labs.”


Hotline System

The OIG operates a Hotline System to facilitate the reporting of allegations
involving the programs and activities under the auspices of the Department.
During this reporting period, the Hotline received 1,306 contacts, of which
509 warranted further processing as complaints. The OIG Hotline System
can be reached by calling 1-800-541-1625 or 1-202-586-4073.



                                     APRIL 1, 2008 – SEPTEMBER 30, 2008           23
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                            Management Referral System

                            The OIG referred 88 complaints to Department management and other
                            Government agencies during this reporting period and specifically requested
                            Department management to respond concerning the actions taken on 36 of
                            these complaints. Otherwise, Department management was asked to
                            respond only if it developed information or took action that it believed
                            should be reported. The following referrals demonstrate management’s use
                            of OIG-provided information to stimulate positive change or to take
                            decisive action:

                               ■   In response to a complaint raising quality and public safety concerns
                                   regarding construction workmanship at a Department facility, the
                                   program office obtained documentation of non-compliant
                                   construction, including photographic proof, and conducted a
                                   comprehensive review of all the issues and concerns. The construction
                                   contractor developed a plan to correct all of the issues, which was to be
                                   implemented with program office verification.

                               ■   In response to a complaint that a contractor safety inspector had not
                                   conducted required safety inspections of hoisting equipment, the
                                   program office required the contractor to bring current maintenance
                                   and care requirements into compliance with those of the Department’s
                                   Office of Safety and Health. The contractor also trained additional
                                   persons to do safety inspections to avoid future recurrences of
                                   this problem.


                            Qui Tams

                            Since 1996, the OIG has been instrumental in working with the
                            Department of Justice in Qui Tam cases. The OIG is currently working on
                            14 Qui Tam lawsuits involving alleged fraud against the Government in the
                            amount of approximately $142.5 million. These cases are highly resource
                            intensive, requiring the active participation of OIG investigative and audit
                            assets. However, they have proven to result in a high return on our
                            investment of resources.




24   OFFICE OF INSPECTOR GENERAL
             SEMIANNUAL
             REPORT TO CONGRESS




Intelligence Activities

During this period, the OIG issued two quarterly reports pursuant to
Executive Order 12863, “President’s Foreign Intelligence Advisory Board.”
The Order required the Inspectors General of the Intelligence Community
to report to the Intelligence Oversight Board concerning intelligence
activities the Inspectors General had reason to believe may be unlawful or
contrary to Executive order or Presidential directive. No intelligence
activities contrary to Executive order or Presidential directive were reported
during this period. We also issued an intelligence-related report entitled
Internal Controls Over Sensitive Compartmented Information Access for Selected
Field Intelligence Elements. (DOE/IG-0796)


Legislative and Regulatory Reviews

The Inspector General Act of 1978, as amended, requires the OIG to review
and comment upon legislation and regulations relating to Department
programs and to make recommendations concerning the impact of such
legislation or regulations on departmental economy and efficiency. The OIG
coordinated and reviewed 35 items during the reporting period.




                                    APRIL 1, 2008 – SEPTEMBER 30, 2008           25
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




                            This page intentionally left blank.




26   OFFICE OF INSPECTOR GENERAL
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                Statistical Information

                            Audit Reports Issued
                        April 1, 2008 – September 30, 2008

Report                                                          Date                   Questioned
Number                            Title                        Issued     Savings        Costs

IG-0792       Review of Alleged Conflicts of Interest          04-02-08
              Involving a Legal Services Contractor for the
              Yucca Mountain Project License Application

IG-0793       The Department’s Progress in Meeting Los         04-11-08
              Alamos National Laboratory Consent
              Order Milestones

IG-0795       Meeting Medical and Research Needs for           05-29-08
              Isotopes Derived from Uranium-233

IG-0797       Implementation of Integrated Safety              07-02-08
              Management at Lawrence Livermore National
              Laboratory

IG-0798       Nuclear Weapons Programs Heavy                   07-15-08
              Water Inventory

IG-0799       Sandia National Laboratories Nuclear             07-31-08
              Weapons Safety Program (U)

IG-0800       Certification and Accreditation of the           08-11-08
              Department’s National Security
              Information Systems

IG-0801       The Department’s Unclassified Cyber Security     09-16-08
              Program – 2008

IG-0802       The Federal Energy Regulatory Commission’s       09-17-08
              Unclassified Cyber Security Program – 2008

OAS-M-08-06   Management Controls over Defense Related         04-24-08
              High Risk Property

OAS-M-08-07   Yucca Mountain Project Document Suspension       04-28-08

OAS-M-08-08   Management Controls over Small Business          07-02-08   $2,025,000
              Opportunities at Oak Ridge National
              Laboratory




                                                               APRIL 1, 2008 – SEPTEMBER 30, 2008   27
                                                SEMIANNUAL
                                                REPORT TO CONGRESS




                                  Audit Reports Issued
                              April 1, 2008 – September 30, 2008

      Report                                                          Date                   Questioned
      Number                            Title                        Issued      Savings       Costs

      OAS-M-08-09   Management Controls over Monitoring and          07-14-08                $2,002,593
                    Closeout of Small Business Innovation
                    Research Phase II Grants

      OAS-M-08-10   Management Controls over Changes to the          07-30-08   $4,300,000
                    Idaho Cleanup Project Contract Baseline

      OAS-L-08-09   The Department’s Control over Leased             04-17-08
                    Space in the National Capital Area

      OAS-L-08-10   Joint Appointments at Office of                  05-20-08     $52,000
                    Science Laboratories

      OAS-L-08-11   Certification and Accreditation of               06-03-08
                    the Office of Science’s National
                    Security Systems

      OAS-L-08-12   Certification and Accreditation of the           06-03-08
                    National Nuclear Security Administration’s
                    National Security Systems

      OAS-L-08-13   Certification and Accreditation of the           06-03-08
                    Under Secretary of Energy’s National
                    Security Systems

      OAS-L-08-14   Bonneville Power Administration’s                06-24-08
                    Aviation Management Program

      OAS-L-08-15   Resolution of Personal Safety Issues at          08-07-08
                    the Department of Energy

      OAS-L-08-16   Agreed-Upon Procedures for Federal Payroll       08-18-08

      OAS-L-08-17   Petroleum-Based Fuels Use                        09-30-08

      OAS-V-08-08   Assessment of Changes to the Internal            04-08-08
                    Control Structure and Their Impact on the
                    Allowability of Costs Claimed by and
                    Reimbursed to Midwest Research Institute
                    Under Department of Energy Contract
                    No. DE-AC36-99GO10337 During Fiscal
                    Years 2004, 2005, and 2006




28   OFFICE OF INSPECTOR GENERAL
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                             Audit Reports Issued
                        April 1, 2008 – September 30, 2008

Report                                                           Date                 Questioned
Number                             Title                        Issued     Savings      Costs

OAS-V-08-09    Assessment of Changes to the Internal            05-07-08              $3,393,317
               Control Structure and Their Impact on the
               Allowability of Costs Claimed by and
               Reimbursed to Sandia Corporation Under
               Department of Energy Contract
               No. DE-AC04-94AL85000 During
               Fiscal Year 2006

OAS-V-08-10    Assessment of Changes to the Internal            09-09-08
               Control Structure and Their Impact on the
               Allowability of Costs Claimed by
               Argonne National Laboratory During
               Fiscal Year 2007

OAS-V-08-11    Assessment of Changes to the Internal            09-30-08
               Control Structure and Their Impact on the
               Allowability of Costs Claimed by
               Battelle – Pacific Northwest National
               Laboratory During Fiscal Years 2005
               Through 2006

OAS-V-08-12    Assessment of Changes to the Internal            09-30-08
               Control Structure and Their Impact on the
               Allowability of Costs Claimed by
               Washington TRU Solutions, LLC During
               Fiscal Years 2004 Through 2007

OAS-V-08-13    Assessment of Changes to the Internal            09-30-08
               Control Structure and Their Impact on the
               Allowability of Costs Claimed by
               Brookhaven National Laboratory During
               Fiscal Years 2004 Through 2007

OAS-FS-08-05   Southeastern Power Administration                09-04-08
               Fiscal Year 2007 and 2006
               Financial Statement Audit




                                                                APRIL 1, 2008 – SEPTEMBER 30, 2008   29
                                                         SEMIANNUAL
                                                         REPORT TO CONGRESS




                                           Inspection Reports Issued*
                                           April 1, 2008 – September 30, 2008

       Report Number                                               Title                                  Date Issued

       IG-0794                    Office of Science Laboratory Conferences                                  05-22-08

       IG-0796                    Internal Controls Over Sensitive Compartmented Information Access for     07-01-08
                                  Selected Field Intelligence Elements

       INS-L-08-06                Sandia National Laboratory-New Mexico Student Intern Safety Training      09-05-08

       S07IS023                   Interagency Review of Prior Inspector General Recommendations             09-30-08
                                  Related to U.S. Export Controls, Volumes I, II, and III

     *Does not include non-public report




30   OFFICE OF INSPECTOR GENERAL
                                                             SEMIANNUAL
                                                             REPORT TO CONGRESS




     OIG Issued Audit Reports with Recommendations
                 for Better Use of Funds
                                        April 1, 2008 – September 30, 2008
                                                (Dollars in Thousands)
     The following table shows the total number of audit reports and the total dollar value of the recommendations that
                                          funds be put to better use by management:

                                                                Total             One Time                Recurring       Total
                                                               Number              Savings                 Savings       Savings

  A. Those issued before the reporting period                        5          $898,034,859              $6,000,000   $904,034,859
     for which no management decision has
     been made:*

  B. Those issued during the reporting period:                     28              $6,377,000                    $0      $6,377,000

        Subtotals (A + B)                                          33           $904,411,859               6,000,000   $910,411,859

  C. Those for which a management decision                         13           $197,976,597              $6,000,000   $203,976,597
     was made during the reporting period:*

        (i) Agreed to by management:                                            $180,151,597                     $0    $180,151,597

        (ii) Not agreed by management:                                           $15,800,000              $6,000,000    $21,800,000

  D. Those for which a management                                  14                   $52,000                  $0        $52,000
     decision is not required:

  E. Those for which no management                                   6          $708,460,262                     $0    $708,460,262
     decision has been made at the end of
     the reporting period:*

  Definition of Terms Used in the Table
  Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the audit
  report and the issuance of a final decision by management concerning its response.

*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                                                             APRIL 1, 2008 – SEPTEMBER 30, 2008       31
                                                                  SEMIANNUAL
                                                                  REPORT TO CONGRESS




            OIG Issued Audit Reports with Questioned Costs
                                             April 1, 2008 – September 30, 2008
                                                     (Dollars in Thousands)
                   The following table shows the total number of audit reports and the total dollar value of questioned
                                                         and unsupported costs.

                                                                             Total                Questioned       Unsupported
                                                                            Number                  Costs             Costs

       A. Those issued before the reporting period for                            0                $6,317,564        $24,000
          which no management decision has
          been made:*

       B. Those issued during the reporting period:                               2                $4,523,161       $872,749

            Subtotals (A + B)                                                     2               $10,840,725       $896,749

       C. Those for which a management decision was                               2                $4,955,814       $896,749
          made during the reporting period:*

            (i) Value of disallowed costs:                                        0                   $462,671       $14,502

            (ii) Value of costs not disallowed:                                   0                   $188,874        $9,498

       D. Those for which a management decision                                   0                           $0          $0
          is not required:

       E. Those for which no management decision has                              0               $10,189,180       $872,749
          been made at the end of the
          reporting period:*

       Definition of Terms Used in the Table
       Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged
       violation of law, regulation, contract, etc.
       Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
       unsupported costs.
       Management decision: Management’s evaluation of the finding and recommendations included in the audit
       report and the issuance of a final decision by management concerning its response.

     *The figures for dollar items include sums for which management decisions on the savings were deferred




32   OFFICE OF INSPECTOR GENERAL
             SEMIANNUAL
             REPORT TO CONGRESS




Reports Lacking Management Decision

The Department has a system in place to track audit reports and
management decisions. Its purpose is to ensure that recommendations and
corrective actions indicated by audit agencies and agreed to by management
are addressed as efficiently and expeditiously as possible. Listed below are
OIG audit reports over six months old that were issued before the beginning
of the reporting period and for which no management decision had been
made by the end of the reporting period. The reason a management
decision had not been made and the estimated date for finalizing
management decisions is described below.

   Management Audits

   IG-0669: Use and Management of Mobile Communications Services,
   December 14, 2004 – The management decision has been reviewed and
   signed by the Chief Information Officer and has been concurred with by
   the necessary departmental elements. Finalization should occur by
   December 31, 2008.

   IG-0753: Recovery Costs for the Proprietary Use of the Advanced Photon
   Source, January 11, 2007 - The finalization of the management decision
   is awaiting the resolution of a policy issue related to full cost recovery.
   A final management decision is expected by December 31, 2008.

   IG-0788: Nanoscale Materials Safety at the Department’s Laboratories,
   February 28, 2008 - The Chief Health, Safety and Security Officer
   submitted a proposed management decision to the Chief Financial
   Officer (CFO) on April 29, 2008. As a result, the Office of Health,
   Safety and Security (HSS) has completed a Special Review of the use of
   Nano Materials and published the results of its review. A path forward
   to address the recommendations in the Special Review is actively being
   developed in cooperation with the Office of the Under Secretary of
   Energy, the Office of the Under Secretary for Nuclear Security, the
   Office of the Under Secretary for Science, and the laboratory directors.
   HSS has indicated that it will work with the CFO to prepare a final
   management decision document reflecting completion of action by
   December 31, 2008.




                                    APRIL 1, 2008 – SEPTEMBER 30, 2008           33
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




                            Prior Significant Recommendations
                            Not Implemented

                            As of September 2008, closure actions on recommendations in 43 OIG
                            reports had not been fully implemented within 12 months from the date of
                            report issuance. The OIG is committed to working with management to
                            expeditiously address the management decision and corrective action process,
                            recognizing that certain initiatives will require long-term, sustained, and
                            concerted efforts. The Department has closed 153 recommendations in the
                            last 6 months. Management updates the Departmental Audit Report
                            Tracking System on a quarterly basis, most recently in September 2008.
                            Information on the status of any report recommendation can be obtained
                            through the OIG’s Office of Audit Services and Office of Inspections and
                            Special Inquiries.




34   OFFICE OF INSPECTOR GENERAL
                                                              SEMIANNUAL
                                                             REPORT TO CONGRESS




   Summary of Inspections/Special Inquiries Activities
                                        April 1, 2008 – September 30, 2008

  Inspections/Special Inquiries open as of April 1, 2008                                                                              43

  Inspections/Special Inquiries opened during this reporting period                                                                    7

  Inspections/Special Inquiries closed during this reporting period                                                                   16

  Inspections open as of September 30, 2008                                                                                           34

  Reports issued (includes non-public reports)                                                                                         6

  Report Recommendations:
      Issued this reporting period                                                                                                    13
      Accepted by management this reporting period                                                                                    13
      Implemented by management this reporting period                                                                                 33
      Funds recovered                                                                                                            $354,596

  Complaints:
  Referred to Department management/others                                                                                            88
  Referred to Department management requesting a response for OIG Evaluation                                                          36

  HOTLINE ACTIVITY
  Hotline calls, emails, letters, and other complaints*                                                                              509

  Hotline calls, emails, letters, and other complaints predicated                                                                    182

  Unresolved Hotline predications from previous reporting period                                                                      15

      Total Hotline predications                                                                                                     197

  Hotline predications transferred to the Management Referral System                                                                 114

  Hotline predications closed based upon preliminary OIG activity                                                                     81

  Hotline predications pending disposition                                                                                             2

      Total Hotline predications                                                                                                     197
* The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
  appropriate Federal, State, local, or private organization for assistance, if applicable.




                                                                                             APRIL 1, 2008 – SEPTEMBER 30, 2008             35
                                                                   SEMIANNUAL
                                                                   REPORT TO CONGRESS




                                    Summary of Investigative Activities
                                             April 1, 2008 – September 30, 2008

       Cases open as of April 1, 2008                                                                                                      211

       Cases opened during period                                                                                                           59

       Cases closed during period                                                                                                           48

       Multi-Agency Task Force Cases Opened                                                                                                 24

       Qui Tam investigations opened                                                                                                         0

           Total Open Qui Tam investigations as of September 30, 2008                                                                       14

       Cases currently open as of September 30, 2008                                                                                       222

       IMPACT OF INVESTIGATIONS:
       Administrative discipline and other management actions                                                                               43

       Recommendations to management for positive change and other actions                                                                  43

       Suspensions/Debarments                                                                                                               23

       Accepted for prosecution*                                                                                                            24

       Indictments                                                                                                                          12

       Criminal convictions                                                                                                                 13

       Pretrial diversions                                                                                                                   1

       Civil actions                                                                                                                        11

       TOTAL DOLLAR IMPACT**                                                                                                        $1,357,765
       (Fines, settlements, recoveries)
     *Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
     **Some of the money collected was the result of task force investigations.




36   OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Feedback Sheet

The contents of the September 2008 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any suggestions
for making the report more responsive, please complete this feedback sheet and return it to:

        United States Department of Energy
        Office of Inspector General (IG-1)
        Washington, D.C. 20585

        ATTN: Felicia Jones




Name: ____________________________________________________________________________


Daytime Telephone Number: _____________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed)




For media inquiries, please dial (202) 253-2162 for assistance.


                                                                   APRIL 1, 2008 – SEPTEMBER 30, 2008   37
This page intentionally left blank.
       U.S. Department of Energy

       Office of Inspector General



                       HOTLINE

       Call the HOTLINE if you suspect
Fraud, Waste, Abuse, or Mismanagement
             by a DOE Employee,
        Contractor, or Grant Recipient



                 Call
   1-800-541-1625 or (202) 586-4073

Additional information on the OIG and reports can be found at
                    www.ig.energy.gov




               U.S. Department of Energy
                1000 Independence Ave., S. W.
                   Washington, DC 20585
